                             Office of the Inspector General

March 2, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

The Social Security Administration’s Procedures for Presumptive Disability Payments
(A-01-98-21005)


Attached is a copy of our final report. The objective of this audit was to determine
whether the Social Security Administration's procedures for presumptive disability and
presumptive blindness payments are adequate to ensure that Supplemental Security
Income funds are paid only in cases where there is a strong likelihood that the claimant
will be found disabled.

Please comment on corrective action taken or planned on each recommendation within
60 days from the date of this memorandum. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



      THE SOCIAL SECURITY

  ADMINISTRATION’S PROCEDURES

        FOR PRESUMPTIVE

      DISABILITY PAYMENTS



   March 2000    A-01-98-21005





AUDIT REPORT

                 E X E C U T I V E S U M M A R Y


OBJECTIVE

Our objective was to determine whether the Social Security Administration’s (SSA)
procedures for presumptive disability and presumptive blindness (PD/PB) payments are
adequate to ensure Supplemental Security Income (SSI) funds are paid only in cases
where there is a strong likelihood that the claimant will be found disabled.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1990 expanded SSA’s authority under the
SSI program to make up to six monthly benefit payments on a presumption of disability,
before making the formal disability or blindness decision. A decision to allow benefit
payments on a presumption of a disability can be made by either the field office (FO) or
the Disability Determination Services (DDS), while in all instances, non-medical
eligibility is determined by FOs. SSA’s FOs can make PD/PB findings only in specific
categories of impairments and only when the impairments have been observed directly
by SSA personnel and/or verified by medical evidence. State DDS offices can make
PD/PB findings in any case where there is a strong likelihood that the claimant will be
found to be disabled or blind and allowed SSI benefits in the formal decision.

The Social Security Act specifies that PD/PB payments made to individuals, who are
later determined to be “not disabled”due to lack of severity in their impairments or
ability to perform gainful work, are not considered overpayments and are not pursued
for recovery. However, if presumptive benefits were paid incorrectly due to nonmedical
reasons, such as, the individual was living outside the country or had excess income
and/or resources when the payments were made, then the presumptive payments are
considered to be overpayments by SSA and recovery is sought.

RESULTS OF REVIEW

SSA’s procedures are generally adequate for the PD/PB program, but adherence to
those procedures in all cases is necessary to prevent improper payments. Our audit
consisted of a detailed review of 100 randomly selected cases in which any PD/PB
payments were made in fiscal year (FY) 1997. For these 100 cases, SSA made
240 PD/PB payments totaling $84,859. SSA followed its policies and procedures in
94 of the 100 cases in our sample, correctly making 215 presumptive payments totaling
$78,680. However, in 6 of the 100 cases, SSA made 25 PD/PB payments totaling
$6,179 incorrectly. In all six cases, FO or DDS staff did not follow SSA’s rules in
determining the claimants’eligibility before making the presumptive payments.



                                            i
Projecting the results of our sample to the population, we estimate that for FY 1997,
SSA paid presumptive benefits of at least $713,156 incorrectly.

Further, in two of the six cases, FO and DDS staff did not confirm or obtain any medical
evidence prior to making the presumptive payments. In these two cases, the claimants
failed to provide, or assist SSA in obtaining, any medical evidence. Since the DDS staff
used medical denial codes in these two cases, SSA did not consider these cases to be
overpaid or attempt recovery of the PD/PB payments.

RECOMMENDATION

We recommend that SSA remind staff to follow SSA’s guidance in approving PD/PB
payments so that such allowances are based on appropriate evidence.

AGENCY COMMENTS

In response to our draft report, SSA agreed to implement our recommendation. (See
Appendix B for SSA's comments to our draft report).




                                            ii
                        T A B L E O F C O N T E N T S


                                                                                                              Page


EXECUTIVE SUMMARY.........................................................................................i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


   EVIDENCE IN PD/PB CASES ............................................................................ 5


   FAILURE TO PROVIDE MEDICAL EVIDENCE ................................................. 6


RECOMMENDATION............................................................................................. 8


APPENDICES

APPENDIX A – Sample Results
APPENDIX B – Agency Comments
APPENDIX C – Major Contributors to this Report
APPENDIX D – SSA Organizational Chart
                              I N T R O D U C T I O N


OBJECTIVE

Our objective was to determine whether the Social Security Administration’s (SSA)
procedures for presumptive disability and presumptive blindness (PD/PB) payments are
adequate to ensure Supplemental Security Income (SSI) funds are paid only in cases
where there is a strong likelihood that the claimant will be found disabled.

BACKGROUND

Under the SSI program, SSA provides benefits to eligible needy individuals who are
aged, blind, or disabled. Prior to paying SSI benefits, SSA must make a formal
determination as to whether the claimant is disabled or blind according to SSA’s rules.
The Social Security Act (Act) defines adult disability as the inability to do any substantial
gainful activity1 because of a medically determined physical or mental impairment.
Children under 18 years old are disabled if their physical or mental impairments cause
marked and severe functional limitations. These impairments must have lasted or can
be expected to last at least 12 consecutive months or will result in death. To be
considered blind, an individual’s vision may not be better than 20/200 or his or her field
of vision must be limited to 20 degrees or less with the best correction. SSA must also
determine whether the individual meets all non-medical eligibility requirements. During
this initial determination process, the claimant ordinarily receives no SSI payments.

To evaluate disability in adults, Disability Determination Services (DDS) offices consider
all evidence to determine the severity of the claimant’s impairments and their impact on
his or her ability to work gainfully. The medical evidence is comprised of documents
such as medical histories, clinical findings, laboratory findings, diagnoses, treatments,
prognoses, and medical opinions about what the claimant can still do despite his or her
impairments, which have been provided by the claimant’s treating physicians,
psychologists and others. If needed, SSA obtains additional information through
consultative examinations from independent sources.

The treating sources and the consultants do not decide whether the individual is
disabled. DDS’s evaluation team makes the disability determination based on its



1
 Substantial gainful activity is physical or mental work in which one exerts strength or faculties to do or
perform something for pay. Usually, for disabled individuals, work is substantial if gross earnings average
over $700 per month after SSA deducts allowable amounts. For blind claimants, the average monthly
gross earnings amount is higher.



                                                    1

development2 of the evidence. DDS staff investigate all avenues presented relating to
the claimant's complaints, including daily activities, pain and other symptoms,
medications, aggravating and/or precipitating factors, and functional limitations. The
disability evaluation process3 is carried out in a sequential order4 and each step taken
increases the time it takes to make the formal disability determination. At any point in
the process the claimant can be found disabled or not disabled and the claim review
stops. If the formal decision is that the claimant is disabled and eligible for SSI benefits,
SSI payments begin.

The Omnibus Budget Reconciliation Act of 1990 expanded SSA’s authority under the
SSI program to make up to 6 monthly benefit payments on a presumption of disability,
before making the formal disability or blindness decision.5 The presumptive payment
program was designed to help needy claimants meet their basic living expenses while
their applications for SSI benefits are being processed. A decision to allow benefit
payments on a presumption of a disability can be made by either the field office (FO) or
the DDS, while in all instances, non-medical eligibility is determined by FOs. SSA’s
FOs can make PD/PB findings only in specific categories of impairments and only when
the impairments have been observed directly by SSA personnel and/or can be verified
by reliable third parties. State DDS offices can make PD/PB decisions in any case
where there is a strong likelihood that the claimant will be found to be disabled or blind
in the formal decision and allowed SSI benefits.

PD/PB payments end the month SSA makes a formal disability decision on the claim or,
if the decision is still pending, the month the sixth payment is made. Also, PD/PB
payments stop any month the individual fails to meet any of the non-medical eligibility
criteria, such as, when his or her income exceeds set limits. PD/PB payments made to
individuals, who are later determined to be “not disabled”under SSA’s rules due to lack
of severity in their impairments or ability to perform gainful work, are not overpayments.
According to Section 1631(a)(4)(B) of the Social Security Act, PD/PB benefits paid prior
to the determination of the individual’s disability or blindness shall in no event be
considered overpayments solely because such individual is determined not to be
disabled or blind. However, if presumptive benefits were paid incorrectly due to non-
medical reasons, such as, the individual was living outside the country, then the
presumptive payments are considered to be overpayments by SSA and recovery is
sought.
2
  In making disability determinations, DDS staff review and evaluate all of the evidence submitted. These

include medical opinions, such as examining and treating relationships of the medical sources to the

claimant; or support, consistency, and other factors that the claimant may bring to SSA’s or the DDS’s

attention. DDS staff also apply the same process to opinions of non-examining medical and

psychological consultants and other non-examining physicians and psychologists.

3
  The evaluation process includes analyzing each piece of relevant evidence for its sufficiency (that

is, completeness and relevance to the determination) and internal consistency, and its interrelationship

and consistency with other evidence.

4
  The sequential order followed in determining disability includes: a review of current work activity, a

determination of the severity of the claimant’s impairment(s), a determination of the claimant’s residual

functional capacity, a determination of the claimant’s past work, and consideration of the claimant’s age,

education, and work experience. See C.F.R. Ch. II, § 416.920.

5
  Section 1631(a)(4)(B) of the Social Security Act; 42 U.S.C. § 1383 (a)(4)(B).



                                                    2

                                                                      During recent
                            Figure 1: SSI Applications, Favorable Decisions
                                                                      years, the number
                            and Presumptive Decisions: 1994-1997      of claimants
                                                                      receiving
                                                                      favorable PD/PB
                                                                      decisions has
                                                                      decreased along
      2500                                                            with the number
    Awards (in thousands)




      2000                                                            of SSI
                                                                      applications. For
      1500
                                                                      calendar years
      1000                                                            (CY) 1994
                                                                      through 1997, the
        500
                                                                      number of
          0                                                           individuals
          1994              1995                1996          1997    receiving
                                 Calendar Year                        favorable PD/PB
                        Favorable Presumptive Decisions               decisions
                        All Favorable Decisions                       declined from
                        All Applications                              about 90,900 to
                                                                      46,500,
                                                                      respectively.
                                                                      Over the same
period, the number of SSI applications decreased from about 2,067,900 to 1,498,500
and the number of individuals granted SSI decreased from about 798,800 to 577,900.
For CY 1997, the number of favorable PD/PB decisions (46,500) represents
approximately 3.1 percent of total SSI disabled and blind claims (1,498,500) processed.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 Reviewed sections of the Act and SSA’s rules, regulations, policies and
      procedures;

   • Discussed the presumptive payment program with responsible SSA staff;

   •	 Obtained from SSA’s Supplemental Security Record (SSR) data base an extract
      of 45,830 records of SSI recipients who received PD/PB payments during fiscal
      year (FY) 1997; and

   •	 Selected a random sample of 100 cases from the 45,830 SSR records extracted,
      reviewed case folders, and analyzed electronic records of PD/PB payments
      made (see Appendix A for details on our sampling methodology).



                                                             3

We only reviewed those internal controls related to whether staff processed applications
involving PD/PB payments in accordance with SSA’s policies and procedures. We
conducted our audit between September 1998 and April 1999 in Boston,
Massachusetts. We conducted our audit in accordance with generally accepted
government auditing standards.




                                           4

                  R E S U L T S O F R E V I E W


                                                           SSA’s procedures are
                                                           generally adequate for the
           Figure 2: Sample Case Results
                                                           PD/PB program, but
                                                           adherence to those
                                                           procedures in all cases is
                                                           necessary to prevent improper
                                                           payments. Our audit
     6 PD/PB
    Payments
                                                           consisted of a detailed review
       Not                                                 of 100 randomly selected
    Supported                                              cases in which PD/PB
       6%                                     94 PD/PB     payments were made in
                                              Payments     FY 1997. For these
                                              Supported    100 cases, SSA made
                                                 94%
                                                           240 PD/PB payments totaling
                                                           $84,859. SSA followed its
                                                           policies and procedures in
                                                           94 of the 100 cases in our
sample, correctly making 215 presumptive payments totaling $78,680. However, in
1 case decided by a FO and 5 cases decided by DDS offices, SSA made 25 PD/PB
payments totaling $6,179 incorrectly. In all six cases, FO and DDS staff did not follow
SSA’s rules in determining the claimants’eligibility before making the presumptive
payments. Projecting the results of our sample to the population, we estimate that for
FY 1997, SSA paid presumptive benefits of at least $713,156 incorrectly.

Further, in two of the six cases, FO and DDS staff did not obtain any medical evidence
prior to making the presumptive payments. In these two cases, the claimants failed to
provide, or assist SSA in obtaining, any medical evidence. Since DDS staff used
medical denial codes in these two cases, SSA did not consider these cases to be
overpaid or attempt recovery of the PD/PB payments.

EVIDENCE IN PD/PB CASES

In 1 case decided at a FO and 5 cases decided at DDS offices, FO and DDS staff did
not follow established procedures in determining the claimants’eligibility for
presumptive payments before making 25 PD/PB payments totaling $6,179. In the final
disability determination, SSA found all six claimants ineligible for benefits based on
medical eligibility factors. Based on information in the case folders, the FO and DDS
staff did not obtain sufficient evidence to prove a strong likelihood of disability before
making presumptive payments. In this regard, SSA did not document that the alleged



                                             5

impairments were currently disabling and indicated a high degree of probability they
would meet SSA’s disability criteria when all the evidence was obtained.

For example, in one case the DDS made PD/PB payments based on an allegation of
mental retardation. The claimant applied for SSI on May 27, 1997 and received the first
of two PD/PB payments on July 1, 1997. The claimant’s allegation of mental retardation
on his application was not supported by information provided during the initial interview
or by medical evidence received at the DDS prior to issuance of the first PD/PB
payment. This medical evidence indicated a learning disability, not a mental deficiency,
which was later confirmed by standard psychological testing. The Disability Worksheet
in the case folder indicated that during the month of June 1997 DDS staff took several
actions to develop the claimant’s disability. Further, the related medical and functional
reports show the evidence available prior to the PD/PB payments did not establish a
reasonable basis for presuming that the claimant was currently disabled under SSA’s
rules or that his disability would likely be established when all of the evidence was
obtained.

SSA’s guidelines state that DDS staff should exercise caution with regard to making
presumptive payment decisions in cases alleging mental impairments, due to the
difficulty in predicting the severity of mental conditions with the preliminary evidence
used for PD/PB decisions. SSA’s Program Operations Manual System (POMS)6 states,
“PD decisions in mental disorders will be restricted to situations in which there is
convincing evidence of prolonged severe psychosis or chronic brain syndrome. These
situations will be rare, because evidence that is this convincing will usually be sufficient
for the formal disability determination.” In this case, preliminary evidence indicated a
learning disability, not mental retardation. Since severe psychosis or chronic brain
syndrome was not indicated, in our opinion, the disability did not qualify for presumptive
payment under SSA’s procedures and the PD/PB benefits should not have been paid.

FAILURE TO PROVIDE MEDICAL EVIDENCE

In two of the six cases above, claimants failed to submit sufficient medical evidence for
SSA to make a final disability determination. Despite insufficient medical evidence to
warrant a PD/PB finding in each case, SSA paid nine PD/PB payments to these two
claimants based on their alleged impairments. The FO made the PD/PB decision in one
case where the father alleged the claimant was a low birth-weight child. In the other
case, the DDS made the PD/PB decision for an adult whose alleged impairment was
mental retardation. SSA’s regulations7 require claimants to prove their disability by
providing the evidence necessary to make the disability determination. However, SSA
will assist the claimant in obtaining the information, if necessary, such as, by providing
consultative examinations from medical and other experts to establish the severity of
the disability. Documents in the respective case folders indicate the DDS later made
repeated contacts with the responsible parties, but was never able to obtain the
requested evidence from them. In these two cases, the records show the responsible

6
    POMS section DI 23535.010
7
    20 C.F.R. § 416.912


                                             6

individuals did not cooperate with SSA. SSA’s formal decision on these claims was to
deny benefits to both claimants based on medical reasons because the available
evidence did not establish their disabilities.

In the above two cases, the evidence clearly shows the claimant’s parents and the
claimant himself, in the respective cases, did not cooperate in providing the medical
evidence needed for the DDS to make a final disability determination.

•	 In the disabled child case, file documents indicate DDS staff requested medical
   evidence from the hospital where the child was born, but the hospital was unable to
   locate any clinical records for this child. DDS staff also made numerous attempts to
   contact the parents to obtain information regarding the child’s impairment. However,
   the parents failed to provide the requested medical evidence needed to support the
   child’s alleged disability.

•	 In the disabled adult case, evidence in the file shows DDS staff scheduled
   consultative examinations with medical experts to evaluate the severity of the
   claimant’s impairment, but he did not keep the appointments and then failed to
   pursue the claim. Again, the claim was denied due to the lack of evidence to
   support the severity of the claimant’s impairment.

Even though the claimants did not provide any medical evidence in these two cases, the
claims were denied for medical reasons. As a result, the PD/PB payments were not
considered overpayments.




                                            7

                        RECOMMENDATION


We recommend that SSA remind staff to follow SSA’s guidance in approving PD/PB
payments so that such allowances are based on appropriate evidence.

AGENCY COMMENTS

In response to our draft report, SSA agreed to implement our recommendation. In this
regard, SSA conducted training (in December 1999) on front-end processing and
included a segment on PD/PB claims where FO staff can make PD/PB findings. (See
Appendix B for SSA's comments to our draft report).

OIG RESPONSE

While training for FO staff will address part of the condition found during our review,
SSA must also remind DDS staff of their responsibilities in making PD/PB decisions.




                                             8

APPENDICES

                                                                               APPENDIX A


                    S A M P L E R E S U L T S



                     Sample Results and Projection

Population Size                                                                  45,830

Sample Size                                                                          100

Cases with Unsupported Presumptive Disability Decisions                                6

                    Dollar Projections
Presumptive Payments Not Supported                                               $6,179

Projection of Presumptive Payments Not Supported                             $2,831,785

Projection Lower Limit                                                         $713,156

Projection Upper Limit                                                       $4,950,414


   Note: All precision figures were calculated at the 90-percent confidence level.
                   APPENDIX B



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) EVALUATION
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S PROCEDURES FOR
PRESUMPTIVE DISABILITY PAYMENTS”(A-01-98-21005)


Thank you for the opportunity to review this draft report. Our
comments to the recommendations follow.

OIG RECOMMENDATION

Remind staff to follow the Social Security Administration’s
(SSA) guidance in approving presumptive disability and
presumptive blindness (PD/ PB) payments so that such allowances
are based on appropriate evidence.

SSA COMMENT

We concur with this recommendation. On December 14, 1999, the
Office of Disability conducted an interactive video training
broadcast on front-end processing, including PD/ PBs. The PD/PB
segment reviewed the 15 PD/ PB categories where claims
representatives in the field offices ( FO) can make PD/PB
findings.




                               B-2

                                                                   APPENDIX C



MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

   Roger J. Normand, Director, Disability Program Audit Division

   Rona Rustigian, Deputy Director

   Toy Chin, Auditor

   David Mazzola, Auditor

   Kevin Joyce, Auditor




For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-01-98-21005.
                        APPENDIX D



SSA ORGANIZATIONAL CHART

